Proof of Service

Emergency Petition of 9/11/21

In the Supreme Court of the United States

In Re Gregory Scott Savoy

***

Case no.

Respectfully Requesting Expedited Treatment

On Petition
from a
Defamation Created by a District Judge
(case no. l:20-cv-00784-LO-IDD)

Proof of Service

September 11, 2021

Contact: 703-402-8139

Pro Se In Forma Pauperis
Gregory Scott Savoy
DBA Greg Savoy
Hyatt House Herndon
467 Herndon Parkway
Herndon, VA 20170

Proof of Service

Emergency Petition of 9/11/21

Proof of Service
I, Gregory Scott Savoy, do swear or declare that on this date, September 11, 2021,
as required by Supreme Court Rule 29,1 have served the enclosed;
1. “Application to the Chief Justice to dispense with printing a booklet or to
provide ten copies and to authorize the electronic docketing of the
Emergency Petition”
2. “Emergency Petition for a Writ of Mandamus As Extraordinary Relief”
3. Appendices for Emergency Petition (Appendix A through Appendix G)
4. Motion to Proceed In Forma Pauperis
The above documents were served on each party to the above proceeding or that
party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to
a third-party commercial carrier for delivery within 3 calendar days. The names
and addresses of those served are as follows:
Liam O’Grady- Senior United States District Judge of the United States District
Court for the Eastern District of Virginia, Alexandria Division
%

Greer Lynch, Chief Deputy Clerk
Albert V. Bryan US. Courthouse
401 Courthouse Square
Alexandria, VA 22314

j

Office of the Clerk of the Court
SUPREME COURT OF THE UNITED STATES
1 First Street, N. E. Washington, DC 20543
September 11, 2021
Dear Folks,
Enclosed is a standard run-of-the-mill APPLICATION directed toward the
circuit justice for the Fourth Circuit, Justice John G. Roberts, Jr.
Three copies of the application are included per Rule 22.2.
The Proof of Service certificate is inclusive of all materials included in this
filing related to the APPLICATION-as listed on the Proof of Service certificate.
This APPLICATION includes the following related materials that are
inclusive to the APPLICATION;
1.
2.
3.
4.

Application
Emergency Petition for a Writ of Mandamus as Extraordinary Relief
Appendices (for Emergency Petition)
Motion for Leave to Proceed In Forma Pauperis (for this filing)

Thanks for forwarding these materials.
Warmest Regards,

i

Greg Savoy
703-402-8139

i

rRECEIVED
SEP 1 h 2021

